                          DEPARTMENT OF HEALTH &.
                          DEPARTMENT           &.HUMAN
                                                  HUMAN SERVICES
                                                        SERVICES                                                            Office
                                                                                                                            OfficeofofInspector
                                                                                                                                       Inspector General
                                                                                                                                                 General
(4'''YIC'~'~
 '..
  '..
        ~.".na                                                                                                              Washington, D.C.
                                                                                                                            Washington, D.C. 20201
                                                                                                                                             20201





                                                                     SEP 30
                                                                     SEP 3   2008
                                                                           0 2008



                 TO:
                 TO:                Kerr Weems
                                    Kerry  Weems

                                    Acting Administrator
                                    Acting Administrator
                                    Centers for Medicare
                                    Centers for Medicare &
                                                         & Medicaid
                                                           Medicaid Services


                 FROM:
                 FROM:               ¿¿~
                                     !~~
                               ~:;~ty Inspector General for Audit Services
                               ~:;~ty Inspector General for Audit Services




                 SUBJECT:            Review of Indiana's Reporting Fund
                                                                   Fund Recoveries for
                                                                                   for the Medicaid
                                                                                           Medicaid Rehabilitation
                                                                                                    Rehabilitation
                                                        the Form CMS-64 for Fiscal Years 2000 to 2005
                                     Option Program on the                                       2005 (A-05-07-
                                                                                                      (A-05-07­
                                     00072)


                 Attached is
                 Attached        is an
                                    an advance
                                         advancecopy    copyofofour
                                                                  ourfinal
                                                                       finalreport
                                                                             reporton
                                                                                    onthe
                                                                                       theState
                                                                                            Stateoflndiana's
                                                                                                    oflndiana's reporting
                                                                                                                 reportingfund
                                                                                                                            fud
                 recoveries for the Medicaid Rehabilitation Option (MRO) Program on the Form CMS-64
                 (CMS-64)
                 (CMS-64) for      for fiscal
                                        fiscal years
                                                  years 20002000 to
                                                                  to 2005.
                                                                     2005. We will   issue this
                                                                                wil issue   this report
                                                                                                  report to
                                                                                                         to the
                                                                                                            the Indiana
                                                                                                                Indiana Family and
                 Social     Services
                 Social Services          Administration,
                                 Administration, Office of 
      Office of Medicaid Policy and  and Planning,
                                                                                                      Plannng, (the
                                                                                                                 (the State
                                                                                                                      State Agency)
                 within 5 business days.
                 within     5  business       days.



                 Section      1903(d)(2)
                 Section 1903(d)(2) of 
        of the Act Act and
                                                                 and Federal regulations (42 CFR §§ 433.312(a)(2)) require       require the
                                                                                                                                         the State
                                                                                                                                              State
                 agency
                 agency      to the
                        to refud refund
                                     Federal the
                                             share Federal      share
                                                   of overpayments by the of  overpayments
                                                                          Medicaid program at the endby
                                                                                                     of
 the Medicaid program at the end of
                                                                                                                                             the
                 60-day period following the date of                   of discovery, whether or not the State has recovered the
                 overpayment.

                 Our objective was to determine whether Medicaid overpayments made under the MRO Program
                 and identified
                       identified by
                                  by surveillance
                                      sureilance and
                                                  andutilization
                                                      utilizationreview
                                                                  review (SUR)
                                                                         (SUR) audits  and the
                                                                                audits and  the interest
                                                                                                 interestearned
                                                                                                          eared on
                  those overpayments were reported on the CMS-64
                 those                                        CMS-64 inin accordance
                                                                          accordance with
                                                                                      with Federal
                                                                                           Federal regulations.
                                                                                                     regulations.

                 The State agency did not report Medicaid overpayments
                                                                  overpayments totaling
                                                                                 totaling $23,407,983
                                                                                           $23,407,983 ($14,483,814
                                                                                                         ($14,483,814
                 Federal share)    and interest
                          share) and    interest earned
                                                 eared onon the
                                                             the overpayments
                                                                 overpayments totaling
                                                                                totaling $129,605
                                                                                          $129,605 ($82,028
                                                                                                     ($82,028 Federal
                                                                                                               Federal
                 share) in accordance with Federal requirements. The     The State agency did not report these amounts
                                                                              State agency  did  not report these amounts
                 because itit did
                              did not
                                  not develop
                                      develop and
                                                and implement
                                                     implement internal
                                                                  internal controls
                                                                           controls to
                                                                                    to ensure
                                                                                        ensure that
                                                                                               that overpayments
                                                                                                    overpayments
                 identified
                 identified from SURSUR audits
                                          audits and
                                                  and interest
                                                      interest earned
                                                                earned on
                                                                       on recovered
                                                                           recovered overpayments
                                                                                       overpayments were
                                                                                                       were reported
                                                                                                            reported on
                                                                                                                     on the
                                                                                                                        the
                 CMS-64.
                 CMS-64.

                 We
                 We recommend
                    recommend that
                              that the
                                    the State
                                        State agency:
                                              agency:

                     .•    include
                           include uneported
                                   unreportedMedicaid
                                             Medicaidoverpayments
                                                      overpaymentstotaling
                                                                   totaling$23,407,983
                                                                            $23,407,983 on
                                                                                        onthe
                                                                                           the CMS-64
                                                                                               CMS-64 and
                                                                                                      and
                          refud
                          refund$14,483,814
                                 $14,483,814 to
                                             to the Federal
                                                    FederalGovernment,
                                                            Governent,
Page 2 – Kerry Weems


   •   include unreported interest earned on Medicaid recoveries totaling $129,605 on the
       CMS-64 and refund $82,028 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest earned on the overpayments on the
       CMS-64.

In written comments on our draft report, the State agency disagreed with our first and third
recommendations and did not address our second recommendation. The State agency said it
believes that CMS agreed with the State’s interpretation that the 60-day period did not begin
until the State had the authority under State law to recover funds after a final legal decision was
rendered.

After reviewing the State agency comments, we maintain that our findings and recommendations
are valid.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov or
Marc Gustafson, Regional Inspector General for Audit Services, Region V, at (312) 353-2621 or
through e-mail at Marc.Gustafson@oig.hhs.gov. Please refer to report number A-05-07-00072.


Attachment
   ("4
   ,-:
                                  DE';ARTMENT
                                  DE';ARTMENTOF
                                              OFHEALTH
                                                  HEALTHAND
                                              OFFICEOF
                                             OFFICE  OFA.UDIT
                                                             ANDHUMAN
                                                                  HUMAN SERVICES
                                                        AUDITSERVICES
                                                              Si:RVICES
                                                   233NORTH.MICHIGA.N
                                                  233  NORTH.MI.CHIGAN
                                                     CHICAGO,ILLINOIS
                                                    CHICAGO,
                                                                        SERVICES
                                                                      AVENUE
                                                              ILLINOIS60601
                                                                       60601
                                                                            AVENUE         .
                                                                                                                   REGION
                                                                                                                    REGIONVV
                                                                                                              . . OFFICE
                                                                                                                   OFFICE OF
                                                                                                              INSPECTOR
                                                                                                                           OF
                                                                                                               INSPECTORliENERAL
                                                                                                                         GENERAL




                                                         OCT
                                                         OCT -- 3 2008
                                                                3 2008

ReportNwnber:
Report Nwnber: A-05-07 -00072

               A-05-07-00072

Mr. Jeffrey
Mr.  Jeffey M.
            M. Wells
               Wells
Director of
Director of Medicaid
            Medicaid
402 W. Washington Street, Room W461
402  W. Washington                W461
Indianapolis, Indiana
Indianapolis,  Indiana 46204-2739
                       46204-2739

Dear Mr.
Dear Mr. Wells:
         Wells:

Enclosed
Enclosed is the is  the
                 U.S.     U.S.of Department
                      Deparent    
                   of Health
                                                           Health     and    Hwnan
                                                                      and Hwnan          Services
                                                                                Services (HHS), Offce of(HHS), Office of Inspector
                                                                                                                         Inspector
General      (DIG),
General (OIG),            final
               final report       report
                             entitled "Reviewentitled
                                              of 
        "Review of Indiana's Reporting Fund Recoveries for                 for the
Medicaid         Rehabilitation          Option      Program        on   the   CMS-64
Medicaid Rehabilitation Option Program on the CMS-64 for Fiscal Years 2000 to 2005." We       for   Fiscal Years 2000  to 2005."   We
will   forward
will forward a copy ofa 
copy of this        report
                                      this report      toHHSaction
                                                  to the   the HHSaction             official
                                                                   offcial noted on the          noted on the following page for
                                                                                        followig page.


review     and     any    action     deemed
review and any action deemed necessary.            necessar.

The HHS
The    HHS actionaction official
                            offcial wilwillmakemake final
                                                        final determination      as to actions
                                                                determination as·to    actions taken
                                                                                                taen on
                                                                                                      onall
                                                                                                         all matters
                                                                                                             matters reported.
                                                                                                                      reported.
We    request
We request that youthat   you
                    respond      respond
                            to this           to this
                                    official withi 30 daysofficial    within
                                                           from the date of
 30 days from the date of this
                                                                                                       this letter.
                                                                                                             letter. Your
response should
response       should present
                           present any any comments
                                              comments or      or additional
                                                                   additional information   that you
                                                                               information that   you believe
                                                                                                      believe may
                                                                                                               may have
                                                                                                                     have aa
bearng      on   the    fmal    determination.
bearing on the fmal determination.

Pursuant to the principles of the Freedom
Pursuat to the principles of 
      Freedom ofInformation
                                               ofInformation Act,
                                                              Act, 55 U.S.C.
                                                                      U.S.C. §§552,
                                                                                552,asasamended
                                                                                         amendedby by
Public
Public Law
        Law 104-231,
             104-231, OIG
                        DIG reports
                             reports generally
                                      generally are  made available
                                                 are made available to
                                                                     to the
                                                                        the public to the
                                                                            public to the extent
                                                                                          extent the
                                                                                                 the
information  is not
information is  not subject
                    subject to
                             to exemptions
                                exemptionsininthetheAct
                                                     Act(45
                                                         (45CFR
                                                             CFRpart
                                                                   par5).
                                                                        5). Accordingly,
                                                                            Accordingly, this
                                                                                          ths report
                                                                                              report
will be
will be posted  onthe
        posted on  the Internet
                       Internet at
                                 at http://oig.hhs.gov.
                                    htt://oig.hhs.gov.



If
If you
   you have
       have any
            any questions
                questions or
                           or comments
                              comments about
                                         about this
                                                this report,
                                                     report, please
                                                              please do
                                                                     do not
                                                                        not hesitate
                                                                            hesitate to
                                                                                     to call
                                                                                        call me,
                                                                                             me, or
                                                                                                 or
contact Lyn  Barker, Audit Manager,   at (317)  226-7833,    extension  21, or through  e-mail
contact Lynn Barker, Audit Manager, at (317) 226-7833, extension 21, or through e-mail at      at
Lvn.Barker~oig.hhs.gov.
Lynn.Barker@oig.hhs.gov.Please    refer
                             Please     totoreport
                                    refer     reportnwnber
                                                     nwnberA-05-07-00072
                                                               A-05-07-00072ininall
                                                                                  allcorrespondence.
                                                                                      correspondence.

                                                               Sincerely,
                                                               Sincerely,

                                                                 .~y
                                                               Marc
                                                               Marc Gustafson
                                                                      Gustafson
                                                               Regional
                                                               Regional Inspector
                                                                         InspectorGeneral
                                                                                  General
                                                                for
                                                                 for Audit
                                                                     AuditServices
                                                                           Services


Enclosure
Enclosure
Page 2 – Mr. Jeffrey M. Wells


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF INDIANA’S
REPORTING FUND RECOVERIES
     FOR THE MEDICAID
  REHABILITATION OPTION
      PROGRAM ON THE
     FORM CMS-64 FOR
 FISCAL YEARS 2000 TO 2005




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-05-07-00072
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning, (State agency) administers the Medicaid program. The State agency uses a
statewide surveillance and utilization control program to safeguard against unnecessary or
inappropriate use of Medicaid services and excess payments. The State agency contracted with
Health Care Excel, Inc. (HCE), to conduct surveillance and utilization review (SUR) audits of
Medicaid providers, including community mental health centers (CMHC) providing services
under the Medicaid Rehabilitation Option (MRO) Program. When SUR audits identified
overpayments, HCE, on behalf of the State agency, sent letters to the CMHCs identifying the
overpayment amounts and applicable interest charges and directed the CMHCs to send payments
to HCE.

Section 1903(d)(2) of the Act, as amended by the Consolidated Omnibus Budget Reconciliation
Act of 1985, and Federal regulations (42 CFR § 433.312) require the State agency to refund the
Federal share of overpayments by the Medicaid program at the end of the 60-day period
following the date of discovery, whether or not the State has recovered the overpayment. The
date of discovery is the date that a provider was first notified in writing of an overpayment and
the specified dollar amount subject to recovery (42 CFR § 433.316(c)). Federal regulations
(42 CFR § 433.304) define an overpayment as “ . . . the amount paid by a Medicaid agency to a
provider in excess of the amount that is allowable for the services furnished under section 1902
of the Act and which is required to be refunded under section 1903 of the Act.” In addition,
Federal regulations require the State agency to report interest earned on overpayments. Because
the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” Form
CMS-64 (CMS-64), is due on a quarterly basis, the CMS “State Medicaid Manual” requires the
Federal share of the overpayments be refunded no later than the quarter in which the 60-day
period ends.

OBJECTIVE

Our objective was to determine whether Medicaid overpayments made under the MRO Program
and identified by SUR audits and the interest earned on those overpayments were reported on the
CMS-64 in accordance with Federal regulations.




                                                i
SUMMARY OF FINDINGS

The State agency did not report Medicaid overpayments totaling $23,407,983 ($14,483,814
Federal share) and interest earned on the overpayments totaling $129,605 ($82,028 Federal
share) in accordance with Federal requirements. The State agency did not report these amounts
because it did not develop and implement internal controls to ensure that overpayments
identified from SUR audits and interest earned on recovered overpayments were reported on the
CMS-64.

Because the overpayments were not reported on the CMS-64, the Federal Government may have
incurred increased interest expense of approximately $1.9 million.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments totaling $23,407,983 on the CMS-64 and
       refund $14,483,814 to the Federal Government,

   •   include unreported interest earned on Medicaid recoveries totaling $129,605 on the
       CMS-64 and refund $82,028 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest earned on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our first and third
recommendations and did not address our second recommendation. The State agency said that,
under State law and regulations, a provider may dispute any claim for overpayment and elect not
to repay the amount pending a hearing and any subsequent appeal. The State agency said that it
believes that CMS agreed with the State’s interpretation that the 60-day period did not begin
until the State had the authority under State law to recover funds after a final legal decision was
rendered. In addition, the State agency said there may be an overlap in the recommended
overpayment amounts with OIG audit report A-05-07-00057. The State agency also said it will
review its internal control structure to determine if it can improve the timely reporting of
overpayments recovered from providers and refund the Federal share.

After reviewing the State agency comments, we maintain that our findings and recommendations
are valid. The State agency’s policy and procedures do not conform to Federal requirements at
section 1903(d)(2) of the Act and implementing regulations at 42 CFR § 433.316. We revised
our finding and recommendation to exclude from our current review the overlap in overpayments
from the prior OIG audit report.

The State agency comments are included in their entirety as the Appendix.

                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1
              Federal Requirements for Interest Earned ...........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          OVERPAYMENTS NOT REPORTED ..........................................................................4

          INTEREST NOT REPORTED........................................................................................5

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................5

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................6

          RECOMMENDATIONS.................................................................................................6

          STATE AGENCY COMMENTS....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the “Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program,” Form CMS-64 (CMS-64).

In Indiana, the Indiana Family and Social Services Administration, Office of Medicaid Policy
and Planning (State agency) administers the Medicaid program. The State agency uses a
statewide surveillance and utilization control program to safeguard against unnecessary or
inappropriate use of Medicaid services and excess payments. The State agency contracted with
HealthCare Excel, Inc. (HCE), to conduct surveillance and utilization review (SUR) audits of
Medicaid providers, including community mental health centers (CMHC) providing services
under the Medicaid Rehabilitation Option (MRO) Program. HCE conducted 42 SUR audits and
issued 36 overpayment letters, on behalf of the State agency, to 26 CMHCs providing MRO
services during our audit period. The overpayment letters identified the amount of the
overpayment and applicable interest charges and directed the CMHCs to send payment to the
HCE.

Federal Requirements for Medicaid Overpayments

Pursuant to the Medicaid statute and regulations, a State has 60 days from the discovery of a
Medicaid overpayment to recover or attempt to recover the overpayment before the Federal share
of the overpayment must be refunded to CMS. Section 1903(d)(2) of the Act, as amended by the
Consolidated Omnibus Budget Reconciliation Act of 1985, and Federal regulations at 42 CFR
part 433, subpart F, “Refunding of Federal Share of Medicaid Overpayments to Providers,”
require a State to “. . . refund the Federal share of overpayments at the end of the 60-day period
following discovery . . . whether or not the State has recovered the overpayment from the
provider.” 1 Pursuant to 42 CFR § 433.316(c), an overpayment that is not a result of fraud or
abuse is discovered on the earliest date:



1
 Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require the State to
refund the Federal share of uncollectible amounts paid to bankrupt or out-of-business providers.


                                                         1
       (1). . . on which any Medicaid agency official or other State official first notifies a
       provider in writing of an overpayment and specifies a dollar amount that is
       subject to recovery; (2) . . . on which a provider initially acknowledges a specific
       overpaid amount in writing to the medicaid agency; or (3) . . . on which any State
       official or fiscal agent of the State initiates a formal action to recoup a specific
       overpaid amount from a provider without having first notified the provider in
       writing.

Federal regulations (42 CFR § 433.304) define an overpayment as “. . . the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for services furnished
under section 1902 of the Act and which is required to be refunded under section 1903 of the
Act.” In addition, Federal regulations at 42 CFR § 433.320 require that the State refund the
Federal share of an overpayment through a credit on its CMS-64 submitted for the quarter in
which the 60-day period following recovery ends.

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Therefore, when a State recognizes that an overpayment has been made,
the overpayment and any associated interest earned must be reported on the CMS-64 as an
adjustment to expenditures.

Federal Requirements for Interest Earned

Federal regulations at 45 CFR § 92.21(f)(2) state that “. . . grantees and subgrantees shall
disburse program income, rebates, refunds, contract settlements, audit recoveries and interest
earned on such funds before requesting additional [Federal] cash payments.” Federal grant
administration regulations at 45 CFR part 92 are applicable to the Medicaid program, effective
September 8, 2003. For prior periods, similar provisions in 45 CFR part 74 were applicable. In
addition, the Departmental Appeals Board (DAB) has determined that where Federal funds are
used to produce interest payments, these payments constitute an applicable credit within the
meaning of Office of Management and Budget Circular A-87 (now codified at 2 CFR part 225).
CMS is entitled to a share in the amount of any interest collected (e.g., New Jersey Department
of Human Services, DAB No. 480 (1983)).

Section 2500.1 of CMS’s “State Medicaid Manual” instructs the State to report the Federal share
of any interest received or earned on Medicaid recoveries on the CMS-64 Summary Sheet.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments made under the MRO Program
and identified by SUR audits and the interest earned on those overpayments were reported on the
CMS-64 in accordance with Federal regulations.




                                                 2
Scope

Our review covered the MRO overpayments identified by SUR audits that should have been
reported on the CMS-64 during Federal fiscal years (FY) 2000 to 2005. During this period, SUR
audits identified Medicaid overpayments related to the MRO Program 2 totaling $23,407,983
($14,483,814 Federal share).

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments and related interest collected.

We performed fieldwork at the State agency and HCE offices in Indianapolis, Indiana, from
August 2007 through January 2008.

Methodology

To accomplish our audit objective, we:

    •   reviewed Federal laws, regulations, and other requirements governing Medicaid
        overpayments and related interest earned;

    •   interviewed State agency and HCE officials regarding policies and procedures relating to
        SUR audits and reporting overpayments on the CMS-64;

    •   reviewed 36 SUR audit reports of SUR audits issued from January 1, 2000, to June 30,
        2005, to identify Medicaid overpayments and related interest collected for MRO services
        that were subject to the 60-day rule;

    •   established the dates of discovery using the dates that HCE notified CMHCs in writing,
        on behalf of the State, of the overpayments and the dollar amount and interest subject to
        recovery;

    •   reviewed the CMHC’s audited financial statements to determine whether the entity had
        ongoing business concerns, such as bankruptcy;

    •   determined the quarter in which the 60-day period following discovery of the
        overpayment ended;

    •   reviewed the CMS-64 to determine whether the Medicaid overpayments and interest
        earned were reported within the quarter in which the 60-day period following discovery
        ended;



2
 We did not include SUR-identified overpayments totaling $739,085 for MRO services provided during FY 2003
during this review. We previously audited MRO services provided by CMHCs during FY 2003 (A-05-05-00057)
and recommended a financial recovery for services that did not meet Federal and State reimbursement requirements.


                                                        3
    •   reviewed the CMS-64 to determine whether Medicaid overpayments and interest
        collected were reported during any subsequent quarter through September 30, 2007; and

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the State FY ending June 30,
        2007. 3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State agency did not report Medicaid overpayments totaling $23,407,983 ($14,483,814
Federal share) and interest earned on the overpayments totaling $129,605 ($82,028 Federal
share) in accordance with Federal requirements. The State agency did not report these amounts
because it did not implement internal controls to ensure that overpayments identified from SUR
audits and interest earned on recovered overpayments were reported on the CMS-64.

Because overpayments were not reported on the CMS-64, the Federal Government may have
incurred increased interest expense of approximately $1.9 million.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “. . . must refund the Federal share of
overpayments at the end of the 60-day period following discovery . . . whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment amount because the provider is bankrupt or
out of business ( 42 CFR §433.318).

As a result of SUR audits issued from October 1999 through September 2005, HCE issued 36
provider letters identifying Medicaid overpayments totaling $23,407,983 ($14,483,814 Federal
share) to 26 CMHCs who were not bankrupt or out of business (Table 1).




3
 We calculated the interest expense using the applicable daily interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.



                                                         4
                        Table 1: Community Mental Health Center
                     Overpayments Identified by HealthCare Excel, Inc.
                                                Overpayment
                               Fiscal Year        Amount
                                  2000            $2,826,735
                                  2001             2,421,492
                                  2002               512,399
                                  2003             3,171,729
                                  2004             1,030,440
                                  2005            13,445,188
                               Total             $23,407,983

At the time of our audit, HCE had identified the overpayments, notified the CMHCs, and
recovered $3.3 million in overpayments. Another $20.1 million in overpayments remained
outstanding. The State agency had not reported any of the $23.4 million ($14.5 million Federal
share) on the CMS-64 in accordance with Federal requirements.

INTEREST NOT REPORTED

In accordance with Federal requirements, section 2500.1 of the “State Medicaid Manual”
instructs State agencies to report interest earned on Medicaid recoveries on the CMS-64
Summary Sheet.

As a result of SUR audits issued from October 1999 through September 2005, the State agency
earned interest totaling $129,605 ($82,028 Federal share) on the recovered overpayments
(Table 2).

                       Table 2: Interest Collected on Overpayments
                                      Overpayment            Interest
                   Fiscal Year          Recovered            Collected
                      2000                 $451,599          $11,006
                      2001                1,065,172           15,602
                      2002                   72,181                 0
                      2003                1,077,376           57,218
                      2004                  345,227           21,993
                      2005                  289,567           23,786
                   Total                $3,301,122          $129,605

Although the State agency earned interest on the recovered overpayments, it did not report the
$129,605 ($82,028 Federal share) on the CMS-64 in accordance with Federal requirements.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it reported on
the CMS-64 the Medicaid overpayments identified from SUR audits and interest earned from
recovered overpayments.


                                                5
POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report the overpayments totaling $23,407,983 ($14,483,814
Federal share) on the CMS-64, the Federal Government did not have the use of these funds. As a
result, the Federal Government potentially incurred an increased interest expense of
approximately $1.9 million.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported Medicaid overpayments totaling $23,407,983 on the CMS-64 and
       refund $14,483,814 to the Federal Government,

   •   include unreported interest earned on Medicaid recoveries totaling $129,605 on the
       CMS-64 and refund $82,028 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest earned on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our first and third
recommendations and did not address the second recommendation. The State agency said that,
under State law and regulations, a provider may dispute any claim for overpayment and may
elect not to repay the amount pending a hearing and any subsequent appeal. The State agency
said that it believes that CMS agreed with the State’s interpretation that the 60-day period did not
begin until the State had the authority under State law to recover funds after a final legal decision
had been rendered. In addition, the State agency said there may be an overlap in the
recommended overpayment amounts with OIG audit report A-05-07-00057. Although the State
agency said that its current policies are consistent with CMS requirements, it said it will review
its internal control structure to determine if it can improve the timely reporting of overpayments
recovered from providers and refund the Federal share.

The State agency comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency comments, we maintain that our findings and recommendations
are valid. We revised our finding and recommendation to exclude from our current review the
overlap in overpayments from the prior OIG audit report.

Medicaid regulations at 42 CFR § 433.316(c)(1) specifically provide that an overpayment
resulting from a situation other than fraud or abuse is discovered on the date on which any
Medicaid agency or other State official first notifies a provider in writing of an overpayment and


                                                 6
specifies a dollar amount that is subject to recovery. In its comments, the State agency
recognized that Federal regulations at 42 CFR § 433.316(h) provide that appeal rights extended
to a provider do not extend the date of discovery of an overpayment. CMS, in issuing these
regulations, stated that the plain wording of sections 1903(d)(2)(C) and (D) of the Act does not
permit the Federal government to delay adjustment to Federal financial participation by allowing
the State a recovery period of more than 60 days while the State awaits the exhaustion of
provider appeals or judicial review or the execution of repayment plans (54 Fed. Reg. 5452, 5455
(Feb. 3, 1989)). The DAB has affirmed that CMS is entitled to recover the Federal share of
Medicaid overpayments before any recovery by the State (e.g., New York State Dept. of Social
Services, DAB No. 810 (1986)).

The State agency said that it explained its overpayment recovery process to a CMS regional
office official and that it understood that CMS approved a process under which the State would
return the Federal share based on the date the State could finalize the amount and obtain recovery
from the provider. The State agency has provided no documentation of those discussions.
Furthermore, the DAB has established that the State is charged with being aware of the
governing Federal law and regulations in operating its Medicaid program and that a Government
agent cannot obligate the Government to pay funds in violation of statutory authority (e.g.,
Mississippi Div. of Medicaid, DAB No. 1305 (1992)).

The State agency’s policy and procedures do not conform to Federal requirements at section
1903(d)(2) of the Act and implementing regulations at 42 CFR §433.316.




                                                7
APPENDIX
                                                                                                 APPENDIX
                                                                                                  Page 1 of 3
                                                                         Mitchell E. Daniels, Jr" Govemor
                                                                                          State of Indiana

                                                            Office ofMedicaid Policy and Planning
                       People                            MS 07, 402 W. WASHINGTON STREET, ROOM W382
                       helping                                             INDIANAPOLIS, IN 46204-2739
                      people




July 9,2008



Mr. Marc Gustafson
Regional Inspector General for Audit Services
Office ofAudit Services
Department of Health and Human Services
233 North Michigan Avenue, Suite 1360
Chicago, Illinois 60601

                                                        Re: Draft Report A-05-07-00072
Dear Mr. Gustafson:

In response to your letter dated April 29, 2008 regarding audit report A-05-07-00072, "Review
ofIndiana Reporting of Medicaid Rehabilitation Option Program Fund Recoveries on the
CMS-64," the Office of Medicaid Policy and Planning (OMPP) has reviewed the
recommendations provided. The recommendations are summarized below, and the State's
responses follow:

           •	 Include unreported Medicaid overpayments totaling $24,147,068 on the CMS-64
              and refund $14,943,721 to the Federal Government
           •	 Include unreported interest earned on Medicaid recoveries totaling $129,605 on
              the CMS-64 and refund $81,312 to the Federal Government
           •	 Develop and implement internal controls to correctly report and refund the
              Federal share of identified Medicaid overpayments and interest earned on the
              overpayments on the CMS-64

State Response - Upon review, the State disagrees with most of the OIG's conclusions. The
basic requirements stated in 42 CFR § 433.312 provide for refund of the federal share within 60
days of discovery of an overpayment. The rule states: (a)(1) "Except as provided in paragraph
(b) of this section, the Medicaid agency has 60 days from the date of discovery of an
overpayment to a provider to recover or seek to recover the overpayment before the Federal
share must be refunded to CMS." In 42 CFR § 433.316, titled "When discovery of overpayment
occurs and its significance," the general rule states: "The date on which an overpayment is
discovered is the beginning date of the 60-calendar day period allowed a State to recover or seek
to recover an overpayment before a refund of the Federal share ofan overpayment must be made




                                          www.lN.gov/fssa

                                 Equal Opportunity/Affirmative Action

                                                                                          APPENDIX
                                                                                           Page 2 of 3


to CMS." Subpart (b) states that a state official must notify the provider of any overpayment it
discovers "in accordance with State agency policies and procedures and must take reasonable
actions to attempt to recover the overpayment in accordance with State law and procedures."

State statute and regulations allow a provider to dispute any claim for overpayment and to obtain
an administrative hearing decision. Under these regulations, the provider may elect not to repay
the amount pending the hearing and any subsequent appeal. See Ind. Code § 12-15-13-3(b); 405
Ind. Admin. Code § 1-1-5(d). Thus, the State may not recover or seek to recover an
overpayment until a fmallegal decision has been rendered. Once a final legal decision has been
rendered and repayment received from the provider, OMPP's policy is to report the overpayment
to CMS and to return the federal portion within 60 days.

The State communicated and developed the conditions for this process with the CMS Region V
accountant in charge to facilitate effective returns of the federal share through reporting on the
CMS-64. During the CMS review, state officials explained that the State is unable to recover
from the provider pending completion of the appeals process. The State understood that CMS
was aware of these conditions and approved a process under which the State would return the
federal share based on the date the State could finalize the amount and obtain recovery from the
provider.

OMPP recognizes that subsection (h) of 42 C.F.R. 433.316 states that appeal rights extended to a
provider do not extend the date of discovery. However, in view of CMS's awareness of and
apparent acquiescence in the State's procedure, we believe CMS agreed with our interpretation
that the sixty days did not begin running until the State had the authority under state law to
recover the funds.

Separately, OMPP believes there may be significant overlap between the amount OIG has
identified in this case and the amount it has recommended for refund in the fmal report in A-05­
05-00057. In the latter audit, OIG extrapolated from a sample of Medicaid Rehabilitation Option
claims, but the sample appears to have included claims that had previously been audited and
disallowed by the State's fiscal agent. Su~h claims presumably were subject to recovery and
likely are included in the figure OIG calculated for this audit. We believe the overlap should be
identified before this audit is fmalized. If OIG has already recommended refund of amounts that
duplicate some of the overpayment amounts in this audit, OIG should not recommend refund of
these amounts a second time.

OMPP further questions the OIG's calculation of "potentially higher interest expense" (at page 6
of the draft report). We are unaware of any basis for such a claim by the federal government.
Since the draft report does not include a request to refund this alleged interest expense amount,
we assume OIG is not taking the position that the State would owe any such amount.

OMPP believes its current policies are consistent with CMS's requirements. The State will
review its current internal control structure to determine whether changes should be made to
improve the timely reporting of amounts OMPP recovers from providers and refund of the
federal share of such amounts. In addition, the State is prepared to discuss with CMS staff any
                                                                                       APPENDIX
                                                                                        Page 3 of 3


ways in which CMS believes the State should modify its process of recovering overpayments
from providers and reporting to CMS going forward.

If you have any questions or concerns regarding the above, please contact either Terri Willits or
Catherine Snider from my staffat 317-232.. 7053.




                                                              q{4~wtA---
                                                           Sincerely,




                                                           Jeffrey M. Wells
                                                           Director of Medicaid
